II. SUMMARY
Review Findings. We partially substantiated one of four allegations (Allegation 2) and
could not evaluate one allegation because the audit working paper file could not be
located (Allegation 1). We did not substantiate the other two allegations (Allegations 3
and 4).

The Resident Office did, in fact, close an audit with an MFR as opposed to issuing an
audit report. The Resident Auditor3 stated that she directed the supervisor to write an
MFR to document in the audit file that the Procuring Contracting Officer (PCO) would
not support the audit findings because the PCO believed that the cost and pricing data had
been provided but not used during negotiations. However, the Resident Auditor did not
intend for the MFR to be written instead of an audit report. The Resident Auditor further
stated that the supervisor should have known that an audit report had to be issued. By not
issuing an audit report for this postaward audit, the Resident Office failed to comply with
DCAA policies and procedures that require issuing an audit report for all postaward
audits with or without findings. The Resident Auditor should obtain a confirmation from
the PCO on whether accurate, complete, and current data were disclosed to the PCO and
whether the data were relied on. Based on the PCO response, the Resident Office should
then determine whether defective pricing exists and issue an audit report to the National
Aeronautics and Space Administration (NASA).

Section V, “Other Findings to be Reported,” of this report discusses other issues related
to the allegations such as the loss of the audit working paper file, filing of unissued draft
fraud referrals, and closing postaward audits without an audit report. DCAA should
either revise the existing guidance to specify where the audit office manager’s
memorandum and the draft fraud referral should be filed or issue a memorandum
clarifying the existing guidance and revise the DCAA Management Information System
(DMIS) to allow defective pricing audit assignments to only be closed by issuing an audit
report or canceling the assignment.

III. BACKGROUND
Truth in Negotiations Act. The Truth in Negotiations Act (TINA), under Section 2306a
of Title 10, United States Code, requires contractors to submit current, accurate, and
complete cost or pricing data4 when negotiating contracts with the Government.



3
 A Resident Auditor is a field audit office manager.
4
 Cost or pricing data are all the facts at the date of price agreement that prudent buyers and sellers would reasonably
expect to affect price negotiations significantly.


                                                          2
TINA also provides a price reduction remedy when a contractor fails to submit current,
accurate, and complete data and the Government relied on the defective data in
determining the contract price. The remedy includes provisions for interest and penalties.

DCAA performs postaward audits, also known as defective pricing audits, to determine
whether a contractor complied with TINA. To show that defective pricing exists, the
audit must establish five points.
       • The information in question fits the definition of cost or pricing data.
       • Current, accurate, and complete data existed and were reasonably available to
          the contractor before the agreement on price.
       • The contractor did not submit or disclose the current, accurate, and complete
          data to the contracting officer or an authorized representative and these
          individuals did not have actual knowledge of such data or its significance to
          the proposal.
       • The Government relied on the defective data in negotiating with the contractor.
       • The Government’s reliance on the defective data caused an increase in the
          contract price.

See the Appendix A for the scope and methodology of the review.

IV. FINDINGS AND CONCLUSIONS REGARDING ALLEGATIONS

Allegation 1. An auditor submitted a draft fraud referral to the Resident
Office management as a result of findings identified during a postaward audit
[Audit Assignment Number (No.) 4461-1999A42000005] completed in FY
1999. Management did not issue the fraud referral and gave no reason, orally
or in writing, as to why it was not forwarded to DCAA headquarters in
violation of DCAA Instruction (DCAAI) No. 7640.16, “Reporting Suspected
Contractor Fraud and Other Contractor Irregularities.” The allegation could
not be evaluated.

Facts and Analysis:

       Lost Audit Working Paper File. The DCAA Resident Office could not locate
the audit working paper file for Assignment No. 4461-1999A42000005, “Postaward
Audit of Cost or Pricing Data for STAR 37 FM Upper Stage Delta Usage on Stardust,
Deep Space 1, and IMAGE Missions under Contract Number NAS5-32933.” They did
provide a copy of the September 30, 1999, audit report and some extraneous “unofficial”
working papers.



                                            3
The “unofficial” working papers, however, do not represent a complete audit working
paper file. The auditors charged 733 hours to the assignment, and DCAA billed NASA
approximately $65,482 for the audit.

        Audit Results. The audit report recommended a total price adjustment of
$647,903. The report attributed the Recommended Price Adjustment (RPA) to overstated
subcontract and material costs, the associated indirect expenses, and related contractor
profit. The PCO sustained the RPA in April 2002.

        Subcontract Costs. The “unofficial” working papers contained a letter dated
prior to the date of price agreement in which a subcontractor clearly informed the prime
contractor that they had reduced the price of one specific motor. The prime contractor,
however, did not update their proposal to reflect the price reduction. The prime
contractor’s response contained in the audit report disagreed with the DCAA finding of
defective pricing because the price for the one motor was included in a total proposed
price for it and two other motors, and, therefore, had no individual visibility. The prime
contractor also pointed out that the subcontractor’s updated proposal was higher than the
original proposal. The letter referenced other documents that were not in the “unofficial”
working papers provided, and, therefore, could not be evaluated.

       Material Costs. The audit report stated that overstated material costs resulted
from incorrect quantity pricing, obsolete pricing data, and overstated lot charges5. The
auditor based the finding on a judgmental sample of 10 parts from the contractor’s bill of
materials resulting in an RPA of $401,730 for 3 parts. The contractor did not agree that
they had overpriced two parts because of incorrect quantity pricing and overstated lot
charges. However, they did agree that the one part was obsolete but did not agree with
the auditor’s calculated RPA.

       Draft Fraud Referral. The “unofficial” working papers did not contain a draft
fraud referral; however, they did contain a written account of a discussion between the
auditor and the supervisor addressing potential irregularities. Another “unofficial”
working paper listed a standard audit step requiring the auditor to determine whether any
findings of defective pricing required further pursuit or referral because the audit detected
material errors, irregularities, abuse, or illegal acts. The auditor referenced a working
paper to address the audit step; however, the referenced working paper was not in the
“unofficial” working papers provided.

Conclusion: The allegation could not be evaluated. Based on the “unofficial” working
papers and the audit report, we could not determine whether the auditor ever submitted a
draft fraud referral to the Resident Office management or whether a fraud referral was
5
 Lot charges are vendor charges for items such as set-up, lot acceptance, documentation, and other special testing or
processing costs that occur when an order is processed.


                                                         4
warranted. Neither the audit report nor the “unofficial” working papers contained
information that would indicate potential fraud. In addition, DCAA Western region
management and the Resident Office management and audit staff still employed by
DCAA had no knowledge or recollection of a draft fraud referral being submitted.
Further, without the official working paper file, we could not determine whether the audit
was performed in compliance with DCAA policies and procedures. The loss of the audit
working paper file is addressed in the Section V.

Allegation 2. A DCAA Western region RAM directed an auditor to erase all
evidence of a draft fraud referral from an audit working paper file for a
postaward audit performed in FY 2002 (Assignment No. 4461-
2002A42000002). Resident Office management also instructed another
auditor to ensure that the audit produced no findings. In addition, Resident
Office management closed the audit by issuing an MFR instead of an audit
report in noncompliance with DCAA policies and procedures. The allegation
was partially substantiated.
Facts and Analysis:

       Audit Assignment Information. The Resident Office established Assignment
No. 4461-2002A42000002 to perform a postaward audit of cost or pricing data on
Contract Number NAS5-30722, Modification No. 336. The audit file contained an MFR
dated January 16, 2003. The auditors charged 800 hours to the assignment, and DCAA
billed NASA approximately $85,921 for the audit work.

       Audit Results. The auditor determined that for two of five task numbers, the
contractor had proposed costs higher than the actual costs incurred prior to negotiations
as contained in cost reports provided to DCAA by the contractor. The auditor
documented that the contractor stated that the Integrated Cost History System cost reports
given to DCAA would have been available before price negotiation. In total, the auditor
calculated an RPA of $1,585,032 that included the overstated costs of $1,410,393 and the
associated profit.

       Updated Actual Incurred Costs. The audit working papers contained
documentation from the contractor as to what updated actual incurred cost information
they provided to NASA prior to or during negotiations. In meeting notes, a contractor
representative documented that they could not find any record that actual incurred costs
through December 1999 were submitted to the PCO. However, the working papers also
contained a letter from the contractor to the auditor stating that the contractor did provide
actual incurred costs through October 1999 to the PCO prior to negotiations.




                                              5
       Supervisory Review. Based on a review of the audit working paper file and the
draft audit report, the supervisor provided final review comments that required both the
original auditor and another auditor to make edits to the draft report and complete the
working papers. In addition, the supervisor noted that the hours charged to the
assignment were excessively over budget.

       Resident Auditor Review. Neither the audit working paper file nor the draft
report contained any evidence that the Resident Auditor had reviewed either prior to
RAM review.

       Initial RAM Review and Guidance. The audit working paper file contained an
e-mail from the RAM documenting their review of the audit working paper file. The
RAM pointed out that the auditor needed to obtain and document additional information
to substantiate the finding and prove defective pricing. Specifically, the auditor needed
to name the report in which the actual incurred costs were available, when the report was
available to contractor personnel, and to whom it was available. The RAM also had other
concerns about the verbiage in the draft audit report and the working papers and in
supervisory sign offs. In addition, the RAM noted that the hours incurred on the
assignment were excessive. Finally, the RAM stated that the summary working paper
contained a reference to a fraud referral that should not be in the working papers because
the basis for the referral was not clear.

       RAM Follow-up Review. The RAM performed a second review of the audit
working paper files and subsequently sent an e-mail to the Resident Auditor concerning
her issues with the audit work. The RAM stated that before the report could be issued it
must be revised to clearly state the basis for defective pricing. The RAM repeated a prior
concern that the audit report specify the contractor cost report available at the time of
price negotiation that contained the actual incurred costs and who had access to it. The
RAM also noted that the auditor changed the summary working paper but did not change
the draft audit report to include this data.

       Subsequent Actions. The audit working paper file contained an e-mail from the
Resident Auditor to the supervisor and auditor documenting her review of the audit file
and draft report. The Resident Auditor had several notes regarding the report and the
working papers. She reiterated the repeated concern of the RAM that the audit report
should specify the name of the cost report containing the actual incurred cost, when the
cost report was available, and to whom it was available. The original auditor responded
by questioning whether more information was needed from the contractor.




                                            6
The Resident Auditor replied that the working papers had the information and nothing
more was needed from the contractor. The supervisor and both auditors6 made the edits
and revisions as set forth.

       Auditor Actions to Resolve Open Issues. The second auditor who assumed
responsibility for the audit from the original auditor sent e-mails to the contractor
requesting information regarding the actual incurred costs and clarification on the
accounts that were used to accumulate incurred costs. The working papers do not contain
any documentation to indicate that the contractor responded to the auditor’s request for
actual incurred costs. However, the first issue involving a request was resolved when the
Information Technical Specialist at the Resident Office pulled the information from the
contractor’s system and provided it to the second auditor. Secondly the auditor had asked
whether the contractor was aware of an error that would be reported as a part of the RPA.
The auditor did not require a response to develop the audit position.

       Communication With the PCO. The auditor also attempted to obtain
information from the PCO concerning the contractor’s updated actual incurred cost
information. The auditor sent an e-mail to the PCO with several questions regarding the
actual incurred costs. In one question the auditor asked the PCO whether the contractor
updated incurred costs through December 1999, before or during negotiations. In a
subsequent e-mail, the auditor sent the draft RPA to the PCO and asked whether actual
incurred costs would have made a difference in the negotiations and, if so, would the
price be lower. The auditor sent a follow-up e-mail and left voice messages asking when
the PCO would review the findings and provide responses to the questions. In a
subsequent phone conversation, the PCO stated that she needed to talk with her boss
about the issues. The PCO later sent an e-mail to the auditor stating she was not
disagreeing or agreeing with the auditor and that she negotiated on a bottom line basis
using technical input on labor hours and material dollars. The auditor and supervisor
called the PCO to clarify her response and asked the PCO whether she would support the
DCAA findings and the RPA. The PCO responded that she would have to talk to the
technical person and get back to them. The PCO later informed the auditor that the
Government had the correct information from the contractor at the time of negotiation but
did not take advantage of it then, and she did not think they should take advantage of it
now. Further, the Government negotiated the contract at the bottom line. The auditor
then requested an e-mail from the PCO documenting the response, but the PCO stated
that she was too busy to do so.




6
  Two auditors worked on this audit. The original auditor was a technical specialist (GS-13) and the auditor who
later assumed responsibility for the audit after the fieldwork was completed was a senior auditor (GS-12).


                                                         7
      Final Management Guidance. The auditor documented on a supervisory
guidance working paper that the Resident Auditor and supervisor stated that the auditor
needed to document the position of the PCO and close the audit with an MFR.

       Issuance of MFR. The supervisor documented that the audit was closed with an
MFR because the PCO notified the auditor that she would not support the audit-
determined RPA. At an exit conference, the auditor informed the contractor that, based
on a discussion with the PCO, they were dropping the issues and closing the audit with an
MFR. The auditor drafted the MFR that was subsequently signed by the supervisor for
the Resident Auditor on January 16, 2003, and placed it in the audit working paper file.
No audit report was issued. The MFR stated that the contractor proposed overstated
incurred costs resulting in an RPA of $1,410,393. In addition, the MFR also documented
the position of the PCO. Finally, the MFR concluded that since the PCO would not
support the RPA, the assignment would be closed with no further effort.

        Draft Fraud Referral. No one involved with the audit who is still a DCAA
employee remembered seeing a draft fraud referral. However, the DoD Hotline provided
us a copy of a draft fraud referral with the complaint. The RAM stated that she never
saw a draft fraud referral, only the reference to one in the summary working paper. The
Resident Auditor stated that, to the best of her knowledge, a draft fraud referral was never
submitted for review. During an interview, the second auditor stated that she never saw a
draft fraud referral but had had conversations with another auditor who spoke of potential
contractor irregularities. However, the second auditor did not believe the findings
warranted a fraud referral. To the best of the second auditor’s knowledge, no one drafted
a fraud referral to submit to the Resident Office management.

       Reporting Results of Postaward Audits. The DCAA Manual (DCAAM)
7640.1, “DCAA’s Policies and Procedures,” chapter 14-123, “Reporting Results of Audit
(Postaward),” requires that DCAA issue an audit report for all postaward audits. When
DCAA finds defective pricing during a postaward audit, they issue a positive audit report
with an RPA. When the audit does not identify defective pricing, DCAA is to issue a
negative audit report.

       Quality Control Procedures. The “RAMB-4 Quality Control Program and Audit
Report Sampling,” dated July 23, 2003, requires RAM pre-issuance review and approval
of positive defective pricing audits. In addition, the RAM is required to review at least
one negative defective pricing audit per year.




                                             8
In accordance with the quality control program, the RAM performed an initial review of
this assignment because the draft audit report was positive. For this particular audit, the
working paper file was not returned to her for follow-up review because a positive
defective pricing report was not issued and was not selected for quality control review.

       RAM Rebuttal. The RAM informed us that the original auditor had
performance problems and did not adequately support defective pricing in the audits she
reviewed. In this audit and one other assignment subject to her review, she requested that
additional evidential matter be obtained to support audit conclusions that the contractor
did not comply with TINA. The RAM subsequently provided copies to us of the
performance appraisals for the supervisor and auditor who performed on this audit
documenting identified deficiencies in their work performance. The original auditor,
who has since retired, received a minimally successful rating for the performance period.
The appraisal specifically characterized the work on this audit by stating that the working
paper detail was insufficient to support the findings. The performance appraisal for the
supervisor, who has also retired, addressed problems with supervision of staff, planning
of audits, and review of audits.

       Resident Auditor Rebuttal. The Resident Auditor stated that she did instruct the
supervisor and auditor to explain the position of the PCO in an MFR; however, she did
not intend for an audit report not to be issued. The Resident Auditor also stated that she
did not know that an audit report was not issued because she only signs out defective
pricing audit reports that are positive with findings. The Resident Auditor delegated
authority to the supervisory auditor to sign and transmit negative defective pricing
reports.

        Supervisory Auditor Rebuttal. The supervisor who performed on this audit
retired from DCAA. The Resident Auditor contacted the retired supervisor to see
whether he would agree to be interviewed regarding the audit in question. The retired
supervisor declined to talk with us.

       Reporting Fraud and Other Irregularities. During any DCAA audit, the
auditor is to be alert for any indicators of fraud or other irregularities that would warrant a
referral. DCAAM 7640.1, chapter 14-121.2, “Examples of Conditions Warranting
Consideration of a Fraud Referral,” provides examples specific to postaward audits of
conditions when an auditor might make a fraud referral. DCAA also has specific
procedures to be followed when this occurs that are set forth in DCAAI No. 7640.16,
“Reporting Suspected Contractor Fraud and Other Contractor Irregularities,” and
DCAAM, chapter 4-702.4, “Procedures for Referring Suspicions.” When an auditor
suspects fraud, corruption, or unlawful activity, they are to draft a fraud referral.



                                              9
The draft fraud referral is then submitted to the supervisor who determines whether the
referral is sufficiently supported. When the supervisor determines that the draft referral is
sufficiently supported, then the supervisor forwards the draft fraud referral to
management for review. Once management determines the referral is supported, the draft
fraud referral is sent to DCAA headquarters. When management decides that a referral is
not warranted, they are to document this in a memorandum, provide copies to the
supervisor and the originator, and file it with the draft fraud referral.

Conclusion: The allegation was partially substantiated. The Resident Office closed the
audit with an MFR instead of issuing an audit report in noncompliance with DCAAM,
chapter 14-123, “Reporting Results of Audit (Postaward),” which requires DCAA to
issue an audit report for all postaward audits. The audit working paper file for
Assignment No. 4461-2002A42000002 contained no evidence that Resident Office
management instructed the auditor to ensure that there were no findings. Rather, the
Resident Auditor and supervisor instructed the original auditor to document the position
of the PCO with an MFR and close the audit. Resident Office management failed to
ensure that the audit was properly closed and that an audit report was issued.

The RAM did instruct the original auditor to remove a reference to a fraud referral from
the summary working paper. However, based on the content of the audit working paper
file and discussions with Western region management and Resident Office management
and auditors, no evidence existed at DCAA that either auditor submitted a draft fraud
referral to the Resident Office management. The DoD Hotline did provide us a copy of a
draft fraud referral with the Hotline complaint. Based on a review of the audit working
papers, the audit report, and the draft fraud referral provided with the DoD Hotline
complaint, we determined that the audit findings did not warrant a fraud referral.

Management Comment on Finding. The DCAA response to a draft of this report
pointed out an error in the draft report section entitled “Initial RAM Review and
Guidance.” The first sentence should have stated that the e-mail from the RAM
documented the Resident Auditor’s review of the audit.

APO Response. We corrected the wording in the section (Page 6).

Recommendation:

       We recommend that the Resident Auditor, Boeing Huntington Beach
       Resident Office, on Audit Assignment Number 4461-2002A42000002, obtain a
       written confirmation from the PCO on whether accurate, complete, and
       current data were disclosed to the PCO and whether the data were relied on.
       Based on the response of the PCO, the Resident Office should determine


                                             10
       whether defective pricing exists and issue an audit report to the National
       Aeronautics and Space Administration.

Management Comments. DCAA concurred with the recommendation and the audit
office estimated that a final report will be issued by May 30, 2005.

Allegation 3. The Resident Office management forced an auditor to issue a
negative audit report for a postaward audit that disclosed findings, which is in
noncompliance with DCAA policies and procedures. The allegation was not
substantiated.

Facts and Analysis:

       Audit Assignment Information. The Resident Office established Assignment
No. 4461-2001A42000005 to perform a postaward audit of cost or pricing data under
Contract No. NAS5-30722, Modification 311, “2001 Mars Odyssey Mission Peculiar
Activities.” The supervisor signed out a negative audit report for the Resident Auditor on
October 17, 2002. The auditor charged 513 hours to this assignment, and DCAA billed
NASA approximately $54,605.

       Results of Audit. The auditor determined that the contractor had defectively
priced recurring lot charges based on a judgmental sample of six parts all with substantial
recurring lot charges. The defectively priced recurring lot charges occurred because the
contractor had both overstated recurring lot charges and had proposed recurring lot
charges not applicable to the contract. The audit reported an RPA of $71,176.

        Overstated Recurring Lot Charges. The auditor disagreed with the contractor’s
method of allocating recurring lot charges on the contract. The contractor allocated
recurring lot charges to purchase orders using a line item allocation base (number of line
items on each purchase order). The auditor determined that the contractor should have
allocated recurring lot charges to the purchase orders by using the number of total parts
ordered. In response to the draft finding, the contractor commented that the difference
between their proposed recurring lot charges and the recurring lot charges calculated by
the auditor was the result of a difference in estimating methodology. The auditor argued
that the contractor normally allocated the recurring lot charges based on the total number
of parts procured, not based on the number of line items bought. The auditor documented
in the audit working paper file that the proposed cost was defective because the
contractor did not follow their estimating policies and procedures, thus resulting in
increased costs to the Government.




                                            11
        Recurring Lot Charges Not Applicable to Contract. The auditor concluded
that recurring lot charges were included for one part that was not associated with the
proposal. The contractor did not agree with the auditor and argued that the part was used
on three different proposals and the proposed recurring lot charges were calculated based
on this.

       Supervisory Review. The supervisor reviewed the audit working paper file and
documented several edits that needed to be made to the draft audit report. In addition, the
supervisor documented actions that the auditor needed to take regarding unfinished
working papers and a discrepancy in the hours incurred as documented in the working
papers and the hours showing in DMIS. However, the supervisor did not document any
issues or concerns with the actual audit findings and the RPA in the audit working paper
file.

       Resident Auditor Review. The Resident Auditor did not document any final
review of the working papers or the draft audit report in the audit working paper file.
However, on the interim guidance working paper, the auditor documented a discussion
with the Resident Auditor about obtaining permission to review a variance factor. The
supervisor signed off on this working paper.

        RAM Review. The RAM provided an e-mail documenting her review that was
not in the audit working paper file. The RAM made the following points.

              • A case for defective pricing did not exist because the contractor had
                disclosed the recurring lot charges and its basis for estimating the costs.
              • The auditor was really taking exception to the contractor’s estimating
                methodology.
              • In order to have defective pricing, the auditor specifically needed to
                identify the data that existed at the time of negotiation that was not
                provided to the Government.

       In addition, the RAM determined that the hours charged to the assignment were
excessive. As discussed in the previous allegation (Allegation 2), Resident Office
management documented the identified deficiencies in the auditor’s and supervisor’s
performance in their appraisals for the period.

       Resolution of RAM Concerns. The auditor noted on the summary working
paper that Resident Office management felt that to make a case for defective pricing, the
auditor needed to specifically identify data that existed at the time of negotiation that
were not provided to the Government. The auditor documented that they agreed that
such data were not identified, and, therefore, no price adjustment was in order.


                                            12
Conclusion. The allegation is not substantiated. No evidence existed suggesting that the
auditor was forced to issue a negative audit report. Based on the documentation reviewed
in the audit working paper file and interviews with DCAA Resident Office management,
the auditor did not establish all of the elements needed to prove defective pricing. For
instance, the contractor had proposed the recurring lot charges in accordance with their
disclosed material estimating methodology. The auditor took issue with the contractor’s
estimating methodology and, therefore, did not have any support for defective pricing.
The auditor should have handled this concern by drafting an audit lead for a future
estimating system review or a flash estimating system report. The RAM agreed that the
estimating system issue should have been addressed. A review of the Internal Control
Audit Planning Summary for the contractor’s estimating system showed moderate risk in
the area of cost development; therefore, reporting the estimating issue would more than
likely not have affected the estimating system risk rating at this contractor.

Allegation 4. Resident Office management did not select any pricing actions
for postaward audit in FY 2003 in noncompliance with DCAA Memorandum
for Regional Directors (MRD) 02-OWD-041(R), “Fiscal Year 2003 Planning
and Staff Allocation Documents,” dated July 25, 2002. The allegation was not
substantiated.

Facts and Analysis:

        Resident Office FY 2003 Selection of Pricing Actions. For FY 2003, the
Resident Office used the Postaward Audit Selection System (PASS) for two contractor
entities. The auditor who performed the PASS updated the defective pricing universe
through information obtained from the contractor. The Resident Office had rated the
Boeing Huntington Beach contractor entity as a medium low risk for defective pricing.
The FY 2003 defective pricing universe for the Boeing Huntington Beach contractor
entity consisted of 46 pricing actions subject to TINA. Of the 46, the Resident Office had
chosen 3 for postaward audit in the previous year, leaving 43 eligible pricing actions for
selection in FY 2003. All eligible pricing actions were in the $500,000 to less than
$10 million strata and were categorized as fixed price.7 The Resident Office had no
mandatory selections required in this strata. The auditor selected one pricing action with
the highest value for review in compliance with the PASS requirement to select one of
every 60 pricing actions based on a medium low-risk contractor, fixed-price pricing
actions, and the applicable dollar strata. The Resident Office performed the audit under


7
 Fixed price includes fixed price, labor hour, time and material, and other similar actions where total price or
elements thereof are negotiated at a fixed amount.


                                                          13
Assignment No. 4461-2003B42000005, “Postaward Audit of Contract Number F33657-
01-C-2002, Modification P00006,” and the audit did not identify any defective pricing.

        Postaward Audit Selection System. The DCAA MRD 02-OWD-041(R), “Fiscal
Year 2003 Planning and Staff Allocation Documents,” dated July 25, 2002, provided
each audit office guidance on planning defective pricing audits through the use of PASS.
The guidance requires each audit office to develop and maintain a universe of eligible
contracts from which pricing actions are selected. The audit office uses the PASS to
gauge potential risk of defective pricing by evaluating the factors that contribute the most
to the risk. The factors include the rate of positive occurrences of defective pricing, the
total amount of RPAs, and the results of audits on the contractor’s estimating and
accounting systems. The audit office assigns each factor a weight of one, two, three, or
four based on certain criteria established for each factor. One designates the lowest risk,
and four is the highest risk rating. The average of the four factors’ ratings becomes the
overall risk rating.

The PASS Matrix also separates the eligible pricing actions into various dollar value
strata and contract type. The PASS Matrix then uses the three criteria (overall contractor
risk rating, contract type, and dollar value strata) to determine how many pricing actions
the audit office is required to select for review. The audit office selects the required
number of audits by contract type and dollar value strata. The PASS Matrix designates
pricing actions for certain contract types and dollar values as being mandatory. In
addition, when the audit office has received a request to review a specific pricing action
or has a “hard” audit lead on a pricing action, DCAA guidance considers them
mandatory. Mandatory pricing actions are first used to satisfy the required number of
audits. The audit office fulfills any remaining requirement by selecting additional pricing
actions in the appropriate contract type and dollar value strata.

Conclusion: The allegation is not substantiated. The Resident Office properly
implemented the PASS for FY 2003 for the Boeing Huntington Beach contractor. The
PASS required that one pricing action be selected for postaward audit. The auditor
selected one and the Resident Office performed an audit on the selected pricing action.




                                             14
V. Other Findings to be Reported

Issue One: Loss of Audit Working Paper Files

        The DCAA Resident Office could not locate the audit working paper files for two
of eight postaward audits selected for review. One audit, Assignment No. 4461-
1999A42000005, was named in the first allegation related to management ignoring a
draft fraud referral. The other, Assignment No. 4461-2000A42000004, was judgmentally
selected for review.

        Loss of Assignment No. 4461-1999A42000005. The Resident Office found some
extraneous “unofficial” working papers on floppy discs that were made available for
review. Due to the loss of the official audit file, all auditors at the Resident Office signed
a “Status of Working Paper Files” certification documenting any knowledge they may
have of the whereabouts of the working papers or what happened to them. The Resident
Office personnel provided no additional information. The auditor charged 733 hours to
this assignment, and DCAA billed NASA approximately $65,482. Because the Resident
Office could not provide the official audit working paper file, we could not evaluate the
working papers. Therefore, we could not determine the validity of Allegation 1 as
previously discussed in this report.

       Loss of Assignment No. 4461-2000A42000004. The Resident Office also could
not locate the official audit working paper file for Assignment No. 4461-
2000A42000004, “Postaward Audit of Contract Number NAS5-30722,” that was
judgmentally selected for review. In this case, the Resident Office could not even
produce a copy of the final audit report. All auditors at the Resident Office signed a
“Status of Working Paper Files” certification documenting any knowledge they may have
of the whereabouts of the original working papers or what happened to them. No one
provided any additional information. The auditors charged 402 hours to this audit and
DMIS showed that a report was issued on September 29, 2000. DCAA billed NASA
approximately $37,535 for the audit. The current Resident Auditor at the Boeing
Huntington Beach Branch Office unsuccessfully attempted to obtain a copy of the report
from NASA. The Resident Auditor, supervisor, and auditor who performed the review
each provided written statements as to their recollection of the audit; however, none
could recall details about the nature of the assignment or what work was performed.

         Unofficial Files Subsequently Found. The former Resident Auditor found
some “unofficial’ electronic working papers for Assignment No. 4461-2000A42000004
on a compact disk 10 months after the audit working papers were originally requested.



                                             15
The “unofficial” working papers did not constitute a complete audit working paper file;
therefore, they could not be evaluated for compliance with DCAA policies and
procedures. However, the “unofficial” working papers did contain a copy of a draft audit
report dated September 29, 2000.

       Western Region Quality Assurance Reviews. The Western Region Quality
Assurance Division (WRQA) performed two reviews on audit working paper file storage
in the Western region. Project Report No. 4011-2001H55200508, “Report on Storage
and Backup of Final Electronic Working Papers,” was issued on April 18, 2001. The
WRQA visited 15 audit offices and reviewed 97 completed audits and found that all
offices had written procedures describing their electronic storage processes and
responsibilities and had implemented those procedures. However, the report contained
recommendations on how the audit offices could enhance their written procedures.
Project Report No. 4011-2002H55200512, “Storage of Final Audit Working Papers,” was
issued on September 27, 2002. The WRQA reviewed written closing action operating
procedures for 16 audit offices. At 15 audit offices, they reviewed 67 assignments that
were closed with a report issued in June 2002. The WRQA found that although all audit
offices had written procedures regarding final working paper storage, over one half had
not updated their procedures for revisions made to the July 2001 DCAAM guidance. As
a result, WRQA recommended that the audit offices update their written procedures on
final working paper closing actions to be fully compliant with the current requirements.
The report also recommended that controls be established to ensure procedures are
updated on a timely basis and that updated procedures be discussed with audit office
staff. Neither report discussed any cases of missing electronic working papers.

       Requirements When Files Are Destroyed or Lost. DCAAM 5015.1, “Files
Maintenance and Disposition Manual,” updated March 20, 2001, requires in chapter 4,
part C, “Accidental Destruction of Files,” that in cases of accidental loss or destruction of
temporary or permanent files by fire or other causes, certain actions be taken. The audit
office should:

   • reconstruct as much of the lost or destroyed files as possible; or
   • identify any lost or destroyed records that could not be reconstructed on the
     appropriate records retirement list at the time of retirement of records of the same
     date period to the records center. Along with the description of the records, an
     explanatory note regarding the accidental disposal of the records will be included;
     and
   • report all accidental or unauthorized disposal of records to the DCAA Records
     Administrator, who in turn must notify the National Archives and Records
     Administration as prescribed by 36 Code of Federal Regulation 1228.104.



                                             16
        Current DCAA Guidance on Files Management. The Resident Office has its
own standard operating procedure for records management, “Backup of Permanent
Working Paper Files,” dated June 30, 2003. The Resident Auditor also stated they follow
chapter 5 of DCAAM 5015.1, “Files Maintenance and Disposition Manual;” DCAAR
5015.2, “Records Management Program;” and Western Region Instruction No. 5015.1,
“Records Management Program.” More recently, DCAA implemented the Integrated
Reported Information Management System (iRIMS) in order to further facilitate a
transition to a paperless environment. Copies of all electronic audit working paper files
are required to be saved in iRIMS. In addition, as a result of discussions with DCAA
headquarters during the review, DCAA issued MRD 04-CM-072(R), “Protecting Federal
Records and Employees’ Recordkeeping Responsibilities,” dated December 21, 2004,
reminding audit offices of the records management requirements associated with lost or
destroyed files.

       Subsequent Resident Office Action. The Resident Office issued a memorandum
to the Director, DCAA, dated January 18, 2005, reporting the loss of Assignment
Numbers 4461-1999A42000005 and 4461-2000A42000004 in accordance with DCAAM
5015.1. The Resident Office also implemented several processes to ensure that files are
being maintained properly. The Resident Office now is to conduct a monthly
reconciliation of audits dispositioned in DMIS to audits filed in iRIMS, and has instituted
a new process for storing and retrieving the hardcopy working paper files.

        Conclusion. The Boeing Huntington Beach Resident Office lost the “official”
audit working paper files for two of eight postaward audits selected for review. The
audits were performed in FYs 1999 and 2000, respectively. Since that time, DCAA has
issued numerous policies and procedures on retaining and archiving audit working paper
files, emphasizing electronic files. DCAA policies and procedures require each audit
office to have strong controls in place to protect the integrity of the electronic and hard
copy official files and their physical security. However, due to the recent implementation
of iRIMS and new guidance on archiving electronic working papers, the emphasis of
Western regional quality assurance reviews has been on the use and storage of electronic
working papers. Limited attention has been given to testing proper retention of hard copy
working papers that will continue to exist to some extent.

        For audit assignment no. 4461-2000A42000004, no evidence exists that DCAA
issued or that NASA received a final report. DCAA billed NASA approximately $37,535
for the audit. Therefore, DCAA should coordinate with NASA to determine what
additional actions that may be required.

Management Comment on Conclusion. The DCAA response disagreed with our
conclusion that little emphasis had been placed on safeguarding hard copy working


                                            17
papers. DCAA pointed out that the same policies on file retention apply to both hard
copy and electronic files.

APO Response. We revised the conclusion paragraph to more accurately portray our
conclusion. We added language to clarify that limited attention had been given to testing
retention of hard copy files.

Revised Recommendation. As a result of management comments, we revised the Issue
One Recommendation below to clarify that its intent was to have DCAA verify with
NASA what, if any, additional action NASA believes is needed under the circumstances.

Recommendation:

       We recommend that the Director, Defense Contract Audit Agency,
       coordinate with the appropriate National Aeronautics and Space
       Administration officials to determine what additional actions, if any, are
       required on audit assignment number 4461-2000A42000004, since there is no
       official audit working paper file and neither the Defense Contract Audit
       Agency nor the National Aeronautics and Space Administration have an
       official final audit report.

Management Comments. The DCAA nonconcurred with the draft recommendation.
DCAA stated that no additional actions were needed because absent any conflicting
evidence, sufficient evidence existed that a final audit report was issued. DCAA based
their conclusion on DMIS showing that a final report with no audit exceptions was issued
to NASA on September 29, 2000, and 402 hours charged to the audit. DCAA claimed
that the DMIS information is supported by the unofficial draft report also dated
September 29, 2000, to NASA with no exceptions that was found in unofficial audit
working papers.

APO Response. The DCAA comments were not responsive. In the past, we have found
inaccuracies in the DCAA management information system. Neither DCAA nor NASA
has a copy of the final report. A former audit manager found the electronic unofficial
draft report in a moving box from her former office approximately 10 months after we
first requested it. Additionally, during the review, we identified another instance where
the audit office did not issue a final audit report when no exceptions had been identified.
Contrary to the DCAA position, they have no evidence that a report was ever formally
issued. Therefore, DCAA should discuss the situation with NASA and determine what
additional actions, if any, NASA requires to support its payment of over $37,000 for a
review that has no official audit files and no final report. DCAA should reconsider its
comments to the revised Issue One Recommendation in response to the final report.


                                            18
Issue Two: Filing of Memorandum and Draft Fraud Referral When Referral
           Determined to be Unnecessary
        Resident Office Procedure for Retention of Draft Fraud Referrals. The
Resident Office does not have an internal procedure in place as to where to file a draft
referral and the required Resident Auditor’s memorandum when the Resident Auditor
determines that the referral should not be elevated to DCAA headquarters. The Resident
Office management did not identify where such documents would be filed other than as
part of the Resident Office administrative files because they had not had any draft fraud
referrals that were determined to be unnecessary.

        DCAA Policy on Issuing Fraud Referrals. DCAAI No. 7640.16 is very specific
about the responsibilities of management when an auditor has detected suspected
contractor fraud or other irregularities. When this occurs, the auditor submits a draft
fraud referral to their supervisor providing the basis for why the auditor suspects fraud or
other irregularities. The supervisor is required to review the draft fraud referral for
information that suggests a reasonable basis for suspicion of fraud, corruption, or
unlawful activity. When the supervisor decides that a reasonable basis exists, as
documented in the referral, the supervisor must provide the draft fraud referral to the
audit office manager for review and approval. The audit office manager must review the
draft fraud referral and determine whether or not it should be forwarded to DCAA
headquarters. DCAAI No. 7640.16, chapter 5.2.4 specifically directs the audit office
manager to “…Document by memorandum reason(s) for any conclusion that there is not
a sufficient basis for suspicion of fraud or other irregularity. Provide a copy of the
memorandum to the supervisor and originator, and file the memorandum with the draft
DCAA Fraud referral.”

       DCAA Headquarter Guidance. In a teleconference held on June 24, 2004, the
DCAA Deputy Assistant Director for Operations stated that he did not see a problem with
the memorandum and draft fraud referral being filed in the audit working paper file and
that having these documents in the audit working paper file shows that fraud indicators
were disclosed and considered. However, he also stated that additional research was
needed to determine whether any guidance existed specifying where the documents
should be filed. In a follow up e-mail, he referenced page 150 of DCAAM 5015.1, “Files
Maintenance and Disposition Manual,” updated March 20, 2001, as specifying the filing
location. DCAAM 5015.1 provides, “…records related to Suspected Irregular Conduct
referrals and responses to requests from investigative agencies or the Department of
Justice regarding fraud or other irregular practices should be filed under code 850.3,”
which is part of the DCAA standard numbered filing system.




                                             19
       Conclusion. Current DCAA guidance does not specify where the required audit
office manager’s memorandum and draft fraud referral should be filed. DCAAM 5015.1
does provide guidance for records related to fraud referrals. Because of the importance
of these documents, DCAA should issue guidance clarifying and reminding the audit
staff where the required audit office manager’s memorandum and the associated draft
fraud referral should be kept. In addition, if DCAA expects these documents to be filed
separately from the audit working paper file, then existing guidance may need to be
strengthened to ensure that the auditor appropriately documents the consideration of
fraud indicators in the audit working paper file as required by GAS.

Recommendation:

      We recommend that the Director, Defense Contract Audit Agency, revise the
      existing guidance in Defense Contract Audit Agency Instruction No. 7640.16,
      “Reporting Suspected Contractor Fraud and Other Contractor
      Irregularities,” to specify that the draft fraud referral and the audit office
      manager’s memorandum that states why the referral was not forwarded
      should be filed under Code 850.3 or issue a memorandum clarifying the
      existing guidance.

Management Comments. DCAA concurred with the recommendation. By July 31,
2005, DCAA planned to issue guidance to the field on filing a draft fraud referral and the
associated memorandum under Code 850.3 and referencing the working papers
accordingly. DCAA will also revise DCAAI No. 7640.16 appropriately.

Issue Three: Postaward Audits Closed With No Audit Report Issued

      Discussions with DCAA regarding Assignment No. 4461-2002A42000002 that
was closed with an MFR instead of an audit report raised questions about when to use an
MFR to close an assignment.

        DCAA Headquarters Review. Based on our finding, DCAA headquarters
decided to perform a review to determine the significance of the issue. Staff from
Operations Workload Analysis Division (OWD) queried DMIS to determine how many
postaward audits had been closed without a report in FYs 2003 and 2004. OWD found
that a total of 119 audits were closed with no report, representing 7,995 audit hours. For
FY 2003, DCAA closed 86 audits with 5,827 hours charged without a report. In FY 2004,
DCAA closed 33 audits with 2,168 hours charged without a report.




                                           20
       Audits That Should Have Been Cancelled. As a result of the significance of the
numbers retrieved from DMIS, OWD coordinated with the DCAA headquarters Policy
Division. The Policy Division performed an analysis of postaward audits closed in DMIS
with code “N – No Report” and learned that 35 percent were closed because the auditor
discovered, after commencing the audit, that the pricing action was not based on certified
cost or pricing data. The Policy Division concluded that it would have been more
appropriate to close these audits with code “C – Cancelled.”

        Audits That Could Be Closed With No Report. The Policy Division determined
that the audit office could close an audit with no report issued only when the audit was to
assist another office cognizant over a subcontractor or different contractor division.

     Planned DCAA Guidance. DCAA plans to issue guidance in the form of an
MRD to:

       • ensure that offices, to the extent practical, program pricing actions that are
         subject to TINA;
       • remind auditors that the preliminary audit steps are to brief the contract and
         Price Negotiation Memorandum to reconfirm that the pricing action is a
         negotiated procurement, has not been audited before, includes the defective
         pricing clause, and that the Government relied on the cost or pricing data
         provided by the contractor;
       • clarify that postaward audits should be closed in DMIS with Code “C –
         Cancelled” when it has been determined a postaward audit will not be
         conducted;

        Conclusion. DCAA headquarters staff identified, analyzed, and proposed
corrective actions for a significant issue. However, we do not agree that appropriate
situations exist for defective pricing audit assignments to be closed in DMIS with a “no
report” designation. DCAA should either issue an audit report or cancel the audit. When
an audit office is only gathering information for another office and a defective pricing
audit is not being performed on an assist basis, then the audit office could charge the
hours to a blanket DMIS code established for this purpose. The planned guidance also
should include a reminder that any defective pricing audit that is canceled must be
replaced in order to satisfy the requirements of the PASS. In addition, DCAA should
notify NASA when DCAA has billed NASA for any cancelled defective pricing audits
after incurring more than a minimum number of hours because TINA was not applicable.




                                            21
Recommendation:

      We recommend that the Director, Defense Contract Audit Agency:

      1. revise Defense Contract Audit Agency Management Information System
         to only allow defective pricing audit assignments to be closed by issuing an
         audit report or canceling the assignment,
      2. issue guidance reminding the audit offices that any canceled defective
         pricing review must be replaced with a similar substitute in order to
         comply with the Postaward Audit Selection System requirements, and
      3. notify the National Aeronautics and Space Administration of any canceled
         defective pricing audits that were billed to them in FYs 2003 and 2004.

Management Comments. DCAA concurred with Recommendations 1 and 2, but
nonconcurred with Recommendation 3. DCAA agreed to revise, by September 30, 2005,
the DMIS to only allow defective pricing audits to be closed when issuing a report (“R”)
or canceling the audit (“C”). DCAA also agreed to issue, by July 31, 2005, a
memorandum reminding the audit staff that when a programmed, discretionary defective
pricing audit is canceled, then a substitute pricing action must be reviewed. The same
memorandum will include a new requirement to notify the cognizant customer when a
defective pricing audit is canceled. However, for Recommendation 3, DCAA stated that
due to the minimum hours involved, it would not be economical to notify the cognizant
customers which FYs 2003 and 2004 defective pricing audits were canceled.

APO Response. The DCAA comments for Recommendations 1 and 2 were responsive
and for Recommendation 3 were not responsive. For Recommendation 3, DCAA has a
fiduciary responsibility to formally notify the cognizant customer when a review has been
canceled, especially when DCAA billed the customer for hours associated with the
canceled work. Such a notification will allow the customer to determine whether it needs
to take any action such as establishment of an added internal control, to prevent a future
waste of its resources. Additionally, DCAA has already identified the pertinent
assignments and hours; therefore, DCAA should not have to expend a significant amount
of resources to perform the task. DCAA should reconsider its comments to
Recommendation 3 in response to the final report.

     We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.




                                           22
Appendix A: Scope and Methodology
       To determine the validity of the allegations, we selected eight postaward audits for
review, including the three audits named in the allegations. We judgmentally selected
five other audits from 1999 through 2002 with a fair representation amongst the audit
teams. We evaluated the official audit working paper files for six postaward audits. The
Resident Office could not locate two of the requested eight audit working paper files
including the FY 1999 audit named in the allegations. The other missing audit file was
for an FY 2000 audit that was judgmentally selected for review. For those two audits, we
reviewed “unofficial” working papers that were available. In addition, we interviewed
DCAA managers and personnel. Specifically, we:

       • determined the applicable professional auditing standards, laws
         (statutes), and DCAA policies and procedures;
       • reviewed DMIS database for FYs 1999 through 2002 and judgmentally
         selected five postaward audits to evaluate in addition to the three named
         in the allegations;
       • queried DMIS database to determine what postaward audits were
         initiated in FY 2003;
       • evaluated six of the eight postaward audit working paper files selected
         for review to determine whether they were performed in accordance
         with DCAA policies and procedures;
       • interviewed the RAM and the Resident Auditor who were assigned to
         the Resident Office at the time the audits were performed;
       • interviewed the auditors who performed the audits, both current DCAA
         employees and retired employees;
       • obtained a “Status of Working Paper Files” form from all DCAA
         personnel at the Resident Office and appropriate Western region
         management officials, including the Deputy Regional Director who was
         the prior RAM and the current RAM, certifying as to any knowledge
         they have of the two missing audit working paper files; and
       • reviewed the defective pricing universe and pricing action selections for
         FY 2003 for the Boeing Huntington Beach contractor entity to
         determine whether the selections were made in accordance with policies
         and procedures as set forth in the DCAA PASS.

       The supervisor who reviewed the audits named in the allegations was not
available to be interviewed because he had retired. DCAA contacted him, but he
declined to speak with us.



                                            24
Appendix B: Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Other Defense Organizations
Director, Defense Contract Audit Agency
   Regional Director, Western Region
   Resident Auditor, Huntington Beach Resident Office

Non-Defense Federal Organization
Inspector General, National Aeronautics and Space Administration

Congressional Committees and Subcommittees, Chairman and Ranking
  Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee on
  Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and the
  Census, Committee on Government Reform




                                             25
Defense Contract Audit Agency Comments
                                         Final Report
                                          Reference




                                         Revised




                    27
Final Report
 Reference




Revised




Page 21




Revised




Pages
10 & 11




               28
     Final Report
      Reference




     Page 20




29
31
